<html>
<title> - [H.A.S.C. No. 116-29] MISMANAGED MILITARY FAMILY HOUSING PROGRAMS: WHAT IS THE RECOVERY PLAN?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-29]

                       MISMANAGED MILITARY FAMILY

              HOUSING PROGRAMS: WHAT IS THE RECOVERY PLAN?

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 4, 2019

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-903              WASHINGTON : 2020 
 
 

                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Jeanine Womble, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Megan Handal, Clerk
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     2

                               WITNESSES

Beehler, Hon. Alex A., Assistant Secretary of the Army for 
  Installations, Energy and Environment..........................     7
Henderson, Hon. John W., Assistant Secretary of the Air Force for 
  Installations, Environment, and Energy.........................     6
McMahon, Hon. Robert H., Assistant Secretary of Defense for 
  Sustainment, Office of the Secretary of Defense................     3
Modly, Hon. Thomas B., Under Secretary of the Navy...............     4

                                APPENDIX

Prepared Statements:

    Beehler, Hon. Alex A.........................................    57
    Garamendi, Hon. John.........................................    29
    Henderson, Hon. John W.......................................    49
    Lamborn, Hon. Doug...........................................    31
    McMahon, Hon. Robert H.......................................    32
    Modly, Hon. Thomas B.........................................    41

Documents Submitted for the Record:

    Military Officers Association of America Statement for the 
      Record.....................................................    65
    US Army Bi-Weekly Housing Action Plan Update.................    81

Witness Responses to Questions Asked During the Hearing:

    Ms. Gabbard..................................................    85
    Ms. Horn.....................................................    86
    Ms. Houlahan.................................................    87
    Mr. Kim......................................................    85

Questions Submitted by Members Post Hearing:

    Mr. Kim......................................................    95
    Mr. Scott....................................................    91
    Ms. Stefanik.................................................    92
    
    
MISMANAGED MILITARY FAMILY HOUSING PROGRAMS: WHAT IS THE RECOVERY PLAN?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, April 4, 2019.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. The committee will come to order. I want to 
thank my colleagues for joining us here on the dais. And I 
notice in the back of the room, some military families joining 
us again, and thank you for your--for enlightening us and 
telling us about the problem so that we can move forward with a 
solution.
    In February, this committee heard from a panel of very 
courageous military spouses who told us of the unhealthy and 
unsanitary living conditions that they were experiencing in the 
privatized military housing and the continuing impacts these 
conditions have on the health of their families.
    In addition to our panelists, this committee and many of 
our members have received thousands of emails and letters with 
similar accounts of mold, lead contamination, shoddy 
maintenance, shoddy workmanship, unprofessional property 
management staff. These accounts paint an unsettling picture of 
many of our privatized, family-housing developments.
    Equally disturbing is the fact that when these families 
reached out to their chain of command for help, instead of 
getting the support that they desperately needed, they received 
shrugs of indifference, and they were told that there is 
nothing the military service could do to help them. Well, that 
was the wrong answer.
    We heard from them, we held a committee hearing, and we are 
here today to hear what the United States military is doing to 
support the families and the services that they provide to this 
country.
    In recent weeks, the military services seem to have become 
energized about getting to the root cause of this crisis. We 
have heard encouraging news from senior leadership at the 
engagement of health and safety inspections, inspector general 
investigations into work order processes, and housing hotlines 
to expedite getting families the needed help.
    However, efforts have been performed--these efforts have 
been performed at the headquarters level, and they may not have 
necessarily trickled down to the installations. We continue to 
receive large amounts of correspondence from families 
struggling in today's privatized housing. We have heard that in 
some cases, the very efforts headquarters have put in place to 
improve the situation have led to counterproductive practices, 
like closing the maintenance work orders too quickly, and 
instead of using privatized partners, nondisclosure agreements 
are often used also.
    The services must expeditiously move from their assessment 
mode into implementation. They must use best practices from the 
housing developments that are working well and quickly 
implement the fixes required to conduct effective oversight at 
headquarters level, and provide the necessary support to our 
military families at their installations.
    I expect our witnesses will provide us with information on 
the steps they are taking today to make headway on these issues 
and a detailed road map from here into the mid term and long 
term to keep this issue from ever happening again. Our families 
deserve better, and this committee will demand that the 
services do better.
    With that, I would like to turn to my ranking member and 
good friend, Doug Lamborn of Colorado, for any remarks he may 
have.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 29.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Okay. And thank you, Mr. Chairman. Thank you 
for calling this important hearing. This is the second hearing 
we have had on this extremely important topic. To begin with, I 
want to commend the courage and persistence of military spouses 
for bringing this issue to our attention. Without the diligence 
of military families raising their voices on behalf of others, 
we might still be uninformed about these troubling problems. 
This was truly a grassroots effort in the best tradition of 
America.
    Sadly, our collective management of military family housing 
was not in keeping with our proud traditions. There is no 
question that Congress and the military services were less than 
diligent in our oversight. My colleagues will recall the 
compelling testimony we had from several military spouses last 
February. They described an unyielding bureaucracy unwilling to 
address health issues and closing work orders with no real 
resolution. The frustrations they faced in trying to resolve 
health and safety concerns for their families made a deep 
impression on all of us.
    Thankfully, the military services now understand and accept 
that they have not provided adequate oversight over housing 
programs and they are each taking steps to improve the 
situation. To be sure, not all housing programs suffered from 
mismanagement. Even so, the general disengagement of service 
leadership and the evisceration of housing staff, particularly 
at installation level, left a void. That void led to 
mismanagement at too many projects.
    By now, the military departments have assessed the 
situation. We are here to learn what needs to be done to fix 
the problems and maintain those fixes into the future. There is 
no more important work for this subcommittee to undertake, and 
we will work with our Senate colleagues to make sure that this 
important issue is addressed as successfully as possible.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 31.]
    Mr. Garamendi. Thank you, Mr. Lamborn.
    I would now like to welcome our witnesses, but before they 
start, as I think all of us know, we will have votes in about 
an hour, maybe an hour and 15 minutes. So we are going to move 
along a little more expeditiously than normal.
    So, Mr. Robert McMahon, Assistant Secretary of Defense for 
Sustainment, we welcome you; also, Mr. Thomas Modly, Under 
Secretary of the Navy; Mr. John Henderson, the Assistant 
Secretary of the Air Force for Installations, Environment, and 
Energy; Mr. Alex Beehler, Assistant Secretary of Army for 
Installations, Energy and Environment for the Army.
    All of us should note that Under Secretary Modly appears 
before us today due to the turnover of personnel in the Office 
of the Assistant Secretary for Navy for Energy, Installations 
and Environment. And his seniority should in no way reflect 
negatively on the Air Force, Army, or Department of Defense, 
who send the people that are specifically responsible. So 
having done that little bit of appropriate--we will now move 
on.
    So, let's start with Mr. McMahon.

  STATEMENT OF HON. ROBERT H. McMAHON, ASSISTANT SECRETARY OF 
  DEFENSE FOR SUSTAINMENT, OFFICE OF THE SECRETARY OF DEFENSE

    Secretary McMahon. Chairman Garamendi, Ranking Member 
Lamborn, distinguished members of the subcommittee, thank you 
for the opportunity today to testify on military housing. I 
would like to begin by acknowledging all of the family members 
that have come forward in recent months to share their 
experience. This took tremendous courage, and we appreciate not 
only what they did, but more importantly, what they do every 
day in support of their spouses. What we have heard from them 
reinforces that we collectively must do significantly better. 
For those of us that have lived in military housing before 
privatization--and I have lived in nine different base homes 
during my 34-year military career--we know that the quality of 
privatized housing is significantly better than when DOD 
managed it.
    However, for more than 80 percent of our current military 
population who didn't experience the poor housing of the past, 
this is all they know, and they expect us to get it right 100 
percent of the time.
    As you know, 90--or 70 percent of our military members live 
off base. For the 30 percent that live on base, our goal is to 
offer them a safe, high-quality, and affordable home where they 
want and choose to live. We must and will do better. We need to 
improve upon communications, we need to improve upon 
engagement, and we need to improve upon responsiveness.
    At the same time, we must ensure the long-term viability of 
our privatized housing projects, so that the future residents 
will have high-quality housing 20 years from now as well.
    It is important to distinguish between what housing 
privatization is, and what it is not. The key element is that 
we no longer own privatized homes. This does not mean we should 
not have oversight responsibilities and authorities, but it 
does mean that we do not have contracts to be governed by 
clauses. As such, we exercise our authority through the 
agreements we have entered into with our privatized partners. 
This partnership is key. We must fulfill our oversight 
responsibilities and our partners must meet their obligations 
as landlords.
    Since the beginning of the year, the military departments 
have conducted an intense campaign consisting of site visits, 
reviews of privatized housing conditions, meetings with 
families in communities, and senior-level discussions with 
privatization partners to address property management issues. 
We have developed a series of corrective actions, based upon 
this campaign, that we are now putting in motion, categorized 
in terms of near-term, mid-term, and long-term.
    Examples of these actions include implementing a resident 
bill of rights, determining the feasibility of developing a 
common tenant lease, clarifying processes for residents to 
raise health concerns, and for health providers to report 
issues as appropriate, and establishing resident customer care 
advocates.
    The Department of Defense is committed to working closely 
with you and your staff to ensure our members and families have 
safe places to live, work, play, and pray. We, and our industry 
partners, are fully committed to first ensuring that today's 
residents of privatized housing have a safe, high-quality, and 
affordable home, where they want to live and choose to live, 
and secondly, ensuring the long-term viability of our 
privatized housing projects, so that our future residents, 20 
years from now, have exactly the same thing.
    I look forward to your questions.
    [The prepared statement of Secretary McMahon can be found 
in the Appendix on page 32.]
    Mr. Garamendi. Thank you.
    Now, Mr. Modly.

 STATEMENT OF HON. THOMAS B. MODLY, UNDER SECRETARY OF THE NAVY

    Secretary Modly. Chairman Garamendi, Ranking Member 
Lamborn, distinguished members of the Readiness Subcommittee, 
on behalf of the Secretary of the Navy, Richard B. Spencer, 
thank you for the opportunity to testify to you regarding the 
urgent actions we are taking to immediately improve privatized 
housing and the quality of life for our sailors, Marines, and 
their families.
    As you well know, we ask a tremendous amount from the 
members of our Navy-Marine Corps team in defending our Nation. 
So to learn that we, as the Department of the Navy and its 
leadership, have not fully lived up to our commitments to 
provide quality, safe housing was both embarrassing and 
alarming to us. It was embarrassing because it reflects poorly 
across our entire naval institution, to include those thousands 
of people who actually work extremely hard every day to ensure 
that those goals and objectives are met. And alarming in that 
it raised a number of systemic issues that we needed to 
correct, issues that should have been addressed long ago, given 
our solemn commitment to each and every service member and 
their families that we take care of them to the very best of 
our ability.
    In the end, this issue is not so much about property 
management as it is about leadership. We have recommitted 
ourselves to fixing this problem so that our people are 
provided the housing they deserve, and so that they can focus 
on the important jobs we ask them to do.
    Therefore, we are comprehensively reviewing the business 
systems, reporting mechanisms, and oversight procedures 
governing the way housing maintenance issues are reported, 
remediated, and verified in privatized housing.
    We are also striving to make personal contact with every 
sailor and Marine who lives in a PPV [Public Private Venture] 
housing unit. And to date, I am proud to say that the Navy is 
100 percent complete on that task, reaching over 44,000 sailors 
living in PPV or government-run housing. The Marine Corps will 
be complete with this task by April 15th, and to date, they 
have made direct contact, face-to-face, with over 58,000 
Marines.
    I have also directed the Naval Audit Service to perform a 
comprehensive review of the PPV program and to report back to 
me within 60 to 90 days. The objective of this audit is not 
only to look backwards, but to provide insight into how we can 
better understand and anticipate emerging trends and align 
incentives and accountability across the program.
    Finally, we are reaffirming that our PPV partners must 
remain an important component of the housing solution offered 
to military families. Our agreements with them are designed as 
a partnership, and not as a traditional outsourcing contractor 
relationship. And so we need far more frequent senior 
leadership engagement with them going forward.
    We are also ensuring our military leaders understand that 
we have not outsourced their responsibility to be advocates for 
our service members who reside in a PPV housing unit. It is an 
essential function of commanders and small unit leaders to be 
engaged in the well-being of sailors and Marines and their 
families. This is a moral obligation commanders have to their 
people, but it is also one that can have a profound impact on 
overall readiness of the force.
    It is important that they understand that the PPV structure 
is a partnership in which their role in that partnership is not 
only financial and governance, but rather, it is to be an 
advocate for the tenants whom that partnership serves.
    We cannot allow ourselves to take our eyes off the ball on 
this critical responsibility again, and we are taking every 
possible step to ensure that we don't. I detailed many of the 
specific actions we have taken in my written statement, and I 
can assure you, the Department of the Navy is all hands on deck 
in getting after this problem.
    I respectfully request that the statement--written 
statement be entered into the record. And thank you, and I look 
forward to your questions.
    [The prepared statement of Secretary Modly can be found in 
the Appendix on page 41.]
    Mr. Garamendi. Thank you. Without objection, your statement 
and the statement of all of the witnesses will be entered into 
the record.
    Mr. Henderson.

STATEMENT OF HON. JOHN W. HENDERSON, ASSISTANT SECRETARY OF THE 
      AIR FORCE FOR INSTALLATIONS, ENVIRONMENT, AND ENERGY

    Secretary Henderson. Good morning, Chairman Garamendi, 
Ranking Member Lamborn, and distinguished members of this 
subcommittee. It is an honor to represent our airmen and senior 
Air Force leaders here today. My full written statement has 
been submitted for the record, but I just wanted to submit--
just summarize the actions we have taken to address the 
challenges with privatized housing at some of our Air Force 
bases.
    We have heard the concerns of our airmen, their families, 
and Congress, and Air Force leadership at every level is 
aggressively addressing the challenges identified with family 
housing. We take the health and safety of our airmen and their 
families very seriously. Air Force leadership is currently 
working through 39 significant initiatives along 5 lines of 
effort to empower residents, integrate leadership, improve 
communication, standardize policy, and improve oversight.
    On February 12th, Secretary Wilson and General Goldfein 
directed an inspector general assessment of policies, 
procedures, and best practices for handling resident complaints 
and protecting residents from potential health and safety 
hazards. This assessment will wrap up soon, and we intend to 
incorporate their recommendations into this action plan.
    On February 15th, Secretary Wilson and General Goldfein 
directed 100 percent health and safety review of family housing 
in an effort to identify the scope and extent of our housing 
challenges across the Air Force. We completed the review on 
March 1st, and our commanders are addressing over 4,700 
deficiencies that were identified. To date, over 1,900 of those 
deficiencies have been resolved, and we continue to 
aggressively work with our project owners to close out the 
remaining 2,800 or so items.
    And this week, the Secretary, Chief of Staff, and Chief 
Master Sergeant also sent a tri-signed letter to all wing 
commanders, reinforcing their leader roles and responsibilities 
as they apply to privatized housing management at our bases. We 
are collaborating with the Office of Secretary of Defense, the 
other services, Congress, project owners, and our families and 
advocates to develop a resident bill of rights, which is 
intended to be consistent across all the services.
    The Air Force submitted a $31.2 million fiscal year 2020 
unfunded request to add 250 personnel to our housing management 
offices. This team is the center of gravity for advocating for 
our residents, providing oversight for our project owners, 
keeping the chain of command informed, and providing the 
critical, on-site leadership and management where it matters 
the most.
    We are also taking steps to improve engagement with our 
airmen who lived in privatized housing. For instance, we 
established a toll-free hotline where residents can report 
their concerns with privatized housing, and we are crafting a 
policy to establish tenant councils for both privatized and 
government-owned housing across the Air Force.
    Along with these near-term actions, we have also initiated 
a number of mid- and long-term efforts in collaboration with 
our project owners to improve performance incentive fee 
structure, to automate systems for maintenance work order 
visibility, to add rigor to our maintenance quality assurance, 
to provide mold and moisture policies, and enhance our annual 
site audits.
    Thank you for the invitation to appear here today and for 
your continued support of our airmen and their families. I look 
forward to your questions.
    [The prepared statement of Secretary Henderson can be found 
in the Appendix on page 49.]
    Mr. Garamendi. Thank you, Mr. Henderson.
    Mr. Beehler.

 STATEMENT OF HON. ALEX A. BEEHLER, ASSISTANT SECRETARY OF THE 
         ARMY FOR INSTALLATIONS, ENERGY AND ENVIRONMENT

    Secretary Beehler. Chairman Garamendi, Ranking Member 
Lamborn, and distinguished members of the subcommittee, thank 
you for this opportunity to testify on the current state of the 
Military Housing Privatization Initiative, and answer any 
questions you may have. I want to begin by thanking the 
committee members for their continued support and commitment to 
the Army soldiers, families, and civilians. I look forward to 
working with you to achieve our mutual goal of improving the 
condition of Army housing.
    First, I would like to emphasize that the safety and well-
being of our soldiers and their families is paramount. The Army 
is committed to providing safe and secure housing across its 
104,000 family homes, of which more than 87,000 are privatized. 
The recent reports of substandard conditions in some of our 
military housing units are deeply disturbing. It is 
unacceptable for any of our families, who sacrifice so much for 
our country, to endure such hardships in their own homes.
    Army senior leadership directed installations to inspect 
housing, talk with families, and press housing CEOs [chief 
executive officers] into action. We recently required 
installation commanders to visit all family housing to ensure 
no family resides in a home with life, safety, or health 
deficiencies, and we are currently evaluating the results.
    Additionally, a recently revised Army survey addressing 
housing issues will be sent to residents shortly, and we will 
review our findings with housing CEOs.
    To further address concerns, each installation garrison 
commander has established hotlines and conducted town hall 
meetings, providing residents the opportunity to voice concerns 
to Army leadership. Common themes at these town hall meetings 
included poor customer service, lack of work order 
transparency, and residents' inability to hold housing 
companies accountable.
    Additionally, the service secretaries recently introduced a 
tenant bill of rights, to which we welcome your input, though 
the reforms will not stop there. All companies have agreed to 
ensure sufficient trained technicians and staff will be 
available to address problems, as well as issues brought up in 
our town hall meetings.
    The incentive fee structure and project metrics will also 
be reviewed.
    Going forward, it will be our task to take these 
commitments and codify them in project documents.
    Our mission is to provide high-quality homes and living 
experiences, both privatized and Army-owned. We remain 
committed to providing safe and secure housing for our soldiers 
and their families, but we need to do better. It is clear that 
we have let some of our Army families down, and moving forward, 
we are committed to applying the resources necessary to oversee 
and fully address these issues. Our soldiers and their families 
deserve no less.
    Thank you for your interest in this matter as well as your 
continued support of the Army.
    [The prepared statement of Secretary Beehler can be found 
in the Appendix on page 57.]
    Mr. Garamendi. Gentlemen, thank you for your testimony. We 
have a very significant participation by the members of the 
committee, and we have little time. I would ask the members to 
see if we can work on 3 minutes rather than 5. Otherwise, we 
are going to leave a lot of our members without having an 
opportunity for questions. And I will make mine very, very 
brief here.
    It is very obvious to me that the principal problem here 
was a lack of attention to this issue. From the witnesses 
today, and from the written testimony as well as personal 
meetings, the branches of the military, including the Office of 
the Secretary, have stepped up, paying attention, and have put 
in place plans that, if enacted and carried out over time, will 
reduce this problem and quite possibly eliminate it.
    And I want to make quite sure that the commanders and the 
officers responsible for the installations are given both the 
responsibility and the authority to solve the problem on their 
bases. And I think this is a question that goes to at least the 
three--well, all four of you. Is that the case, has this issue 
been pushed down to the commanders, the officers responsible 
for the various installations?
    Secretary McMahon. Mr. Chairman, let me start, and what I 
will tell you is, we reviewed it from a legal perspective that 
says that our commanders have full authority to have both the 
responsibility and the authority to oversee that, and then I 
will let the services comment specifically.
    Mr. Garamendi. Thank you. Let's start with the Navy and 
just run down the line.
    Secretary Modly. Yes, sir. Absolutely, we have empowered 
our installation commanders to be at the forefront of trying to 
resolve these issues, but I would also say it is also a command 
issue as well, even to the--as I mentioned in my remarks, at 
the smaller unit level, making sure that our junior leaders 
understand their responsibility for watching out for their 
sailors and Marines, and being engaged in that. That helps to 
elevate issues more quickly, and I think that is going to be a 
key to getting after these problems more quickly.
    Mr. Garamendi. Mr. Henderson.
    Secretary Henderson. On behalf of the Air Force, yes, we 
are counting on our leaders and commanders to lead us for our 
corrective action plan.
    Secretary Beehler. On behalf of the Army, absolutely. It 
has already been implemented, what to reinforce to the garrison 
commanders what their responsibilities, duties, and obligations 
are in this area. It is reflected in enhanced training that the 
garrison commanders will have. It also has been reinforced by 
requiring the garrison commanders to have regular town 
meetings; be engaged with responding, and their housing 
authorities, to the 24/7 hotlines; and basically educating the 
residents to make sure that they engage their chain of command 
up through and including the garrison commanders, and on up to 
senior commanders, and even the Army headquarters, if, indeed, 
no satisfaction at the lower level has been incurred.
    Finally, the garrison commanders also are being instructed 
in how effectively to use the incentive fee approval that 
occurs every 90 days as far as appropriately rewarding the 
private companies for their performance during that time 
period.
    Mr. Garamendi. Thank you.
    Also, it is probable that you will need additional 
personnel, or at least people assigned to these tasks. As we 
review and prepare for the NDAA [National Defense Authorization 
Act], we will look specifically for that piece of it. Are 
people going to be assigned to carry out this, and some of your 
testimony spoke to that.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Once again, thank you 
for this important hearing. I will work with you to make sure 
that the action plans that are formulated are carried out, and 
we will continue our oversight in the future.
    Mr. Henderson, before I get into the general question for 
all of the service branches that are represented here today, I 
am going to ask you about one item in particular that 
apparently is some late-breaking news. And it has to do with an 
employee of the firm that operates privatized housing at the 
Air Force Academy having been arrested for fraud. What can you 
tell us about that, and does it reflect in any way on the Air 
Force's oversight.
    Secretary Henderson. Good morning. Thanks. This is an 
ongoing situation at the Air Force Academy, and with our 
project owner there. It is a very unfortunate situation. But I 
also think it serves as a good example of what routine 
oversight looks like, and what it looks like when it is working 
correctly.
    Just to give a little background, to speak in generalities 
since it is still ongoing, in the fall of 2017, our project 
owner, and through our normal audits, our annual audits that we 
do at the projects, we caught some financial anomalies with the 
management at the Air Force Academy. We immediately took action 
with an initial investigation conducted by the project owner, 
that the Air Force was--that monitored. Once we found out that 
those anomalies led us to what we thought was fraudulent 
activity, we turned those matters over to the law enforcement 
authorities in Colorado Springs who conducted their own 
investigation, again, that we cooperated with.
    Since then, a person has recently been charged with 
financial fraud. Hunt--I am sorry. I wasn't going to say the 
company. Our project owner there has agreed to come back and 
reimburse the academy, the $169,000 which is, we think it was 
the estimated amount of the financial fraud, so that is taken 
care of.
    The matter is still ongoing. We are respecting the 
investigative process and the due process of the individual 
charged, but we continue to cooperate with authorities to 
ensure that--and ensure that these mechanisms are in place so 
that we can catch these things when they come up each year.
    Mr. Lamborn. Okay. Well, thank you for taking action on 
that. Please keep the committee informed on how that comes 
along in the future.
    And my question for each of the three service branches 
here, including the Navy and Marines, is, do you have the 
necessary legislative authorities to improve management of 
privatized housing, and are you able to carry out your action 
plan under your current budget numbers?
    Secretary Modly. Sir, I think that we absolutely have 
enough legislative authority to handle this problem, as it has 
been brought to light. This was really a management and 
leadership problem, less so than an authorities problem. So I 
think we are okay in that respect. We probably will need some 
help with respect to staffing, just staffing up some of these 
housing offices, in legislation.
    But I think with respect to authorities, I think we all 
feel comfortable that there is nothing lacking in the 
authorities themselves. This is more of a--as the chairman 
mentioned, paying closer attention to it, getting better 
metrics, so we have more leading indicators of problems before 
they occur.
    Mr. Lamborn. Thank you.
    Mr. Henderson.
    Secretary Henderson. I would agree with that. I think with 
regard to legislative authorities, we have that. Any 
constraints that we have are really within the transactional 
documents, with the project owners, and, in some cases, we need 
to go in and adjust those. For instance, the metrics in 
performance incentive fees, things like that.
    And then with regard to help--per my opening statement, we 
are going to look to restaff our housing offices that were cut 
during the course of personnel cuts and sequestration. We need 
to--we have decided that was clearly a mistake, and we are 
asking for $31 million in an unfunded request to restaff those 
back to their original strength.
    Mr. Lamborn. Well, I will insert an editorial comment here 
before Mr. Beehler comments, and that is, sequestration had 
some very unfortunate results. We know you had to make tough 
choices and sometimes unpalatable choices. We are hoping with 
last year's budget, the current-year budget, and next year's 
budget that we are still negotiating, we have the top-line 
numbers that really allow us to get back to where we should be.
    Mr. Beehler.
    Secretary Beehler. I echo the comments that have just been 
made by my fellow counterparts in the services. It applies to 
the Army. We are undergoing comprehensive assessment in what 
our requirements and needs are. At this point, we don't feel 
that we need additional legislative authorities. It is clearly, 
first and foremost, getting our management side of the house in 
order. We have already hired 119 additional staff for our 
housing authorities at the installation level. We have money 
put in for the fiscal year 2020 budget to make sure most of 
those positions are sustained going forward.
    We know that the private companies with whom we work have 
committed to up to several hundred additional, to perform some 
of the same overarching oversight, and we will hold them 
accountable as well.
    So we--as I say, we are an ongoing assessment, so we will 
have a better handle in 3 to 6 months as to how effective we 
have been in providing the management oversight we need to 
have. And we will come back to the committee.
    Mr. Lamborn. Okay. Thank you all for being here. Thank you 
for the first steps that we are taking.
    Mr. Chairman, I yield back.
    Mr. Garamendi. Thank you, Mr. Lamborn.
    Mr. Kim.
    Mr. Kim. Thank you for taking the time to come here today 
and talk about some of these next steps that you are planning 
to take. I think that is critically important. But I just want 
to take a step back here, because I want to make sure that as 
we are talking about this, and as we are thinking about these 
next steps, that we understand that this isn't really just a 
policy debate here about what to implement here. This is very 
personal. This was as personal as anything that I have seen in 
my time in Congress, where right here in this room, we had 
military families telling us about their immediate needs right 
now.
    So what I am concerned about, what I don't have a good 
sense, leaving this room right now, yet, is, what are you doing 
right now to be able to address those that have immediate 
concerns, health concerns, housing concerns, with the places 
that they have, right now? You know, what can you say to me 
right now, to assure me that your response to this is at the 
scale of the magnitude of the problem at stake?
    A number of you have mentioned how you are doing surveys of 
different homes, and the numbers of homes that have problems 
are in the thousands. So have you scaled up? Are you surging 
personnel and resources right now? Do you have a timeline in 
which I can reassure some of the families that I am in touch 
with, that they are going to have the kind of response that 
they need on an immediate and very personal level? I would like 
to just go through the line here, please.
    Secretary McMahon. Congressman, if I could, let me start. 
After the February hearing, I literally gave out my email 
address to some of the family organizations that if they did 
not feel that they were getting adequate response, they could 
email me directly and that I would personally get involved. I 
have done that on a number of occasions. I have contacted the 
individuals to my left right now. They have been extremely 
responsive. And then the follow-up by individual to make sure 
that we were taking care of issues.
    I will speak for my partners, and then allow them to speak 
for themselves. But the responsiveness that we have, both in 
general but to specific issues, is focused on ensuring we take 
care of our soldiers, sailors, airmen, Marines, and their 
families.
    Secretary Modly. Representative, I want to echo those 
points, and particularly echo your points. I mean, this is 
extremely personal for everybody. And as I mentioned in my 
statement, there are a lot of people who work very, very hard 
and have done an outstanding job in PPV to ensure these homes 
are in good condition for our sailors and Marines. But they are 
now painted with the same broad brush, and that is a little bit 
unfair. But they are taking it because they recognize that this 
is part of family responsibility in the service to handle this.
    I have two children on Active Duty. One of them has lived 
in privatized housing. It was fantastic for them. So we know 
that these are problems that we have to address. We are--as I 
mentioned, we are talking personally, reaching out personally 
to every single person in the Navy and Marine Corps who lives 
in privatized housing. Through that process, we have identified 
on the Navy side over 4,000 issues--about 4,700 issues. Of 
those 47, about 2,800 have asked for a personal visit, in-
person visit to try and resolve the issue. And we are well on 
the way at ticking away at that. I think we made about 900 of 
those visits to address the specific problems. That is in the 
Navy.
    And the Marine Corps has about 7,000, and they have had 
7,000 personal visits in follow-up to these questions. So I 
think we are taking it extremely seriously, as well as taking 
it personally, but we are trying to do everything we can 
immediately to address the immediate concerns.
    But the longer-term issues are also very important to us. 
We just don't want to seem like we are overreacting. We want to 
make sure we fix this in the long run, and that is some of the 
longer-term things that we are working on, with the partners as 
well.
    Secretary Henderson. Good morning. The--like Mr. McMahon, 
my family and I spent about 18 years in military housing, some 
of it privatized, some of it before privatization. And I 
completely understand how personal this gets with families when 
things aren't going right, or when the family members deploy 
and we are leaving our families to fend for this on their own. 
And so it is a very difficult situation.
    That is why we went in for the immediate actions and to ask 
for a 100 percent review of the health and safety conditions in 
our housing. That resulted, and now our numbers are up to close 
to 50,000 of our families who live in housing have been 
contacted, interviewed, assessed their safety concerns. And per 
my opening statement, where we had come back, commanders and 
leaders went into the house, validated what the issues were, 
and we opened up about 4,700 work orders for which they are now 
surging on, and we are battle tracking here essentially with 
the Air Force.
    At the rate that we are resolving these, I expect it to 
take another 30 to 45 days to close these out. In some cases 
where conditions were unsafe, we are moving families into safer 
housing and taking care of that for them.
    And then part of this, a huge part of the loss of trust 
here in our assessment was just--was just a lack of 
communication, a lack of understanding of what the--what a 
dispute resolution process, the lack in roles and 
responsibilities of the commanders and leaders, and a lack of 
understanding of maybe the resources that were available. So we 
are working really hard to reengage and communicate better with 
our families.
    Mr. Kim. Thank you. Unfortunately our time has expired, but 
I just want to press having tangible timelines of when we can 
deliver for these families, make sure they are getting the 
health care that they need to be able to have these remedies in 
tangible ways. I just ask that we follow up on them. Thank you.
    I yield back.
    [Secretary Beehler's response to Mr. Kim's question can be 
found in the Appendix on page 85.]
    Mr. Garamendi. Thank you.
    We are going to try to keep this as tight as we possibly 
can. We have a lot of members that would like to speak.
    Mr. Scott, you are next.
    Oh, before you come on, Mr. Scott, we have received a 
statement for the record from the Military Officers Association 
of America. Without objection, we will enter that into the 
record here. Thank you.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Garamendi. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, I have 
known General McMahon for a long time now, and I can assure you 
that if he is in charge of resolving an issue, that you are 
going to get a satisfactory outcome. He is--he takes it head 
on, and has done a wonderful job. Did a wonderful job at Robins 
Air Force Base, and I am glad he is in the position he is in.
    I had a chance to talk with Mr. Henderson yesterday for a 
while. One of the things that I will tell you, in the bill of 
rights, that is important to me, and in talking to the men and 
women that came to testify before us, when a contract mandates 
mediation, and then that contract has loser-pay provisions in 
it, that would--could effectively force a soldier to pay 100 
percent of their annual income to carry a housing company, a 
multimillion dollar housing company, to a mediation, that is 
not acceptable. And so the loser-pay provisions of the 
contracts--I don't mind the mediation. I am happy that the 
mediator, as I understand it, is going to be part of the chain 
of command, but that is not a--that is not a square deal or a 
fair fight for our soldiers to mandate mediation and then to 
mandate loser-pay on our soldiers.
    With that said, I want--Mr. Henderson, Hurricane Michael 
hit the southeastern United States October the 10th. Is the 
most pressing thing for the Air Force right now, in your 
position as head of installations, a disaster supplemental?
    Secretary Henderson. So I think the most--the most 
pressing, the most pressing thing for the Air Force right now 
is solvency, getting through fiscal year 2019, and a lot of 
that is attributed to the money that we fronted on--to recover 
from disasters at Tyndall Air Force Base, now Offutt, 
earthquakes in Alaska. And by fronting--by taking the fiscal 
year 2019 funds and--and doing exactly what we believe was the 
right thing to help those bases recover and get those missions 
back online, we have asked for supplemental funding, and at 
this point, without that supplemental funding, we are looking 
at very severe impacts to Air Force solvency for the rest of 
fiscal year 2019.
    Mr. Scott. Perhaps ``urgent'' would have been a better 
word. But I want to make my colleagues aware of this, and I 
want to give equal criticism where criticism is due. A Senator 
from New York, a Senator from Vermont, refused to allow a vote 
to push forward on disaster assistance this past week. We had 
been promised--those of us hit by the storm have been promised 
disaster assistance from both sides, in both Chambers, since 
mid-October, that any bill to open the government would include 
the disaster assistance and the supplemental funding, including 
the funding for the Air Force. That hasn't happened.
    Now, I do think that those games are being played, and I 
think that it is a Senator from New York and a Senator from 
Vermont predominantly playing those games. But I also think it 
is extremely irresponsible for the Office of Management and 
Budget to not submit an official request for supplemental 
disaster assistance funding. And I can't--I just can't 
understand with the magnitude of the impact of these storms to 
our Air Force, to readiness, to our installations, to the men 
and women in uniform, I can't understand why our Office of 
Management and Budget, controlled by my party, didn't submit a 
request for supplemental assistance, which I think is 
absolutely unacceptable. And I think it is unacceptable that 
Senator Schumer and Senator Leahy have played the games they 
have played with disaster assistance.
    And I want to remind everybody, we have one legislative day 
after today before we leave, and we will not return until April 
the 29th. Would it make a difference to you if you got a 
disaster bill today versus, say, May?
    Secretary Henderson. Absolutely, Congressman. We have 
already stopped projects, stopped funding for projects in order 
to preserve those funds for readiness needs. We are impacting 
aircraft and satellite repair, and we are--at some point, we 
are going to have to--we will be stopping or slowing down 
recovery at Tyndall, and we will only do life, health, and 
safety things at Offutt. And that--by deferring that money, 
since it is one-year money, if there is supplemental funding, 
that means we have to come back and work twice as fast to get 
that executed at the end of the year.
    Mr. Scott. My time is about to expire. I have a tremendous 
amount of respect for you. I apologize for interrupting, but 
you are also, according to the Air Force, going to cut 18,000 
training and flying hours starting over the next couple of 
months. Is that correct?
    Secretary Henderson. That is--that is the intended 
consequence without supplemental funding.
    Mr. Scott. Thank you.
    Mr. Garamendi. Thank you, Mr. Scott.
    I will control myself. Although I will say there is $1 
billion slushing around in the Department of Defense that could 
have been made available for this purpose.
    Let me now move to our next, Ms. Houlahan.
    Ms. Houlahan. Hi, and thank you. And, Mr. Scott, I also 
appreciate your comments, too, and I don't think it is a good 
idea to play games. I trained at Tyndall Air Force Base, but I 
also have family in Puerto Rico, and I feel like we are playing 
with everybody's lives in these partisan games, and so I 
appreciate your comments.
    I also am a third-generation military member myself. My dad 
and my grandfather served full careers in the Navy, and my 
brother and I grew up in military housing. My mom and her five 
brothers and sisters grew up in military housing off and on. 
And so this is personal to me, too, for a lot of reasons.
    And so my questions first are sort of, I guess, tactical in 
nature, and then maybe a little bit more personal in nature. 
One is that we have talked a little bit about readiness and 
whether or not people are genuinely going to be able to deploy 
when they have issues like this at home. But a second question 
is, how about recruitment? Have you seen any sort of 
implications to this in terms of recruitment because of this 
narrative that has been following military housing around?
    Secretary McMahon. Congresswoman, I will start, and then I 
will turn it over to the services. We all understand that we 
recruit the individual; we retain the family. And they care 
about four things. Our military families are tremendously 
resilient, and they can go with just about any challenges they 
face. All they ask for is a safe place to live in, adequate 
medical attention, good schools for their kids, and when we 
move them, we don't break all their stuff. And so this is an 
integral part----
    Ms. Houlahan. That is a lot.
    Secretary McMahon. In reality, we are working those issues 
today. I personally have two of those four that are on my 
plate. We are dead serious about making sure that we provide 
our military families, whether on installation or off, with a 
safe place to live and something they can----
    Ms. Houlahan. And I guess I only have 3 minutes' time. Has 
anybody any data about whether or not this has impacted 
recruitment in any form?
    Secretary Modly. Representative, we don't have any data on 
that just yet. We are, obviously, getting a lot--pressurized on 
recruiting because of the state of the economy. That is always 
going to cause us issues. But we haven't seen anything yet 
related to this that is impacting either recruiting or 
retention in the Navy.
    Ms. Houlahan. Thank you. And my second question is also a 
two-part question. And I, in addition to being a former 
military member, a veteran, I am also a mom, and I spent the 
last few years of my career focused on early childhood 
development, pre-K through fourth grade, literacy particularly. 
We know that kids under 6 who are exposed to things like lead 
and like mold and those sorts of things, end up experiencing 
pretty significant delays. Have we--I know that, Mr. Henderson, 
you talked a little bit about the 50,000 people who you had 
documented. Have we quantified at all how many kids under 6 
have been impacted by this?
    Secretary Henderson. Ma'am, we have not quantified numbers 
for children under 6.
    Ms. Houlahan. And my second part of the question is, if we 
haven't quantified that, perhaps we should. But has there been 
any effort to put some sort of teeth into this, by identifying 
through teachers, or daycare providers, or parents themselves, 
sort of the signs that you should look for if your child has 
been impacted by mold, or your child has been impacted by lead?
    Secretary Henderson. We have--ma'am, I would like to take 
that for the record--it is an important question--and get you a 
detailed response. We have done some communications on--with 
mold awareness for our families who move into the homes, 
especially when we have ones that are prone to mold, and areas 
that are prone to mold. I don't know that we have reached out 
to teachers and counselors and outside folks like that, though.
    [The information referred to can be found in the Appendix 
on page 87.]
    Secretary McMahon. Congresswoman, if I could add to that as 
well, we have created, within the Office of the Secretary of 
Defense, a team of both our military construction, our family 
housing personnel, plus our medical folks to begin to look at 
where there is a cross-utilization of some of the experiences 
that we have had. An integral part of that is one of our deputy 
assistant secretaries, who happens to be a pediatrician, who 
happens to be an expert in the effects of both lead and mold, 
to help us better understand how we ought to move forward. So 
we are not where we want to be with that, but we are looking at 
that and have an understanding that we need to do a better job 
in the future of being able to respond to the issues of our 
children.
    Ms. Houlahan. And this has something to do with sort of 
what Representative Kim was talking about. I think that we can 
all agree that we are in a bad place. I think what we need to 
agree on is what the path forward is, and how we--I am not 
engineer, how we quantify it, how we measure it, you know, how 
we move forward with discrete programs that will address it, 
and I am just sort of poking around for that.
    I only have a half a minute left. Does anybody have any 
sort of quantifiable discrete programs that are out there to 
address these issues, particularly pre-K or early childhood 
development issues?
    Secretary Beehler. Ma'am, the Army has comprehensive 
testing of children under 6 for lead, particularly focused on 
housing from pre-1978, and has been able to track data that 
shows that children with lead in their systems at that age, 
within the greater Army community--all children are tested for 
lead, whether they are in the 1978, old housing or not. And the 
vast majority, which is an extremely small minority of such 
children, are actually--they reside outside military housing. 
So the important thing for the Army----
    Ms. Houlahan. And I am terribly sorry. I have run out of 
time, but I am happy to take the rest of your answer on the 
record.
    [The information referred to can be found in the Appendix 
on page 87.]
    Secretary Beehler. We are happy to do it. The point is that 
we test the children, regardless of where they are housed, and 
track it appropriately through their development.
    Ms. Houlahan. Thank you, sir.
    Mr. Garamendi. Ms. Houlahan, you raised an important issue, 
one that--the committee has become aware of a document produced 
by the Navy and the Marine Corps Public Health Center, that 
seems to discourage clinicians from suggesting that a patient's 
home could be contributing to their condition, and to--and here 
I quote--``avoid commenting on the habituality, integrity, and 
remediation requirements for specific buildings,'' end quote. I 
am sure the Navy has taken steps to rescind that memo and to 
send out an appropriate one. We will let it go at that.
    I would like now to turn to Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman, and thanks to all of 
you for being here. I heard someone mention it, about the role 
of the commander. And when you think about the role of a unit 
commander, whether it is, let's say, go right down to platoon 
commander and second lieutenant and the platoon sergeant, okay. 
We know that the role of the command team at any unit level is 
not just on the battlefield. It is 24/7. If you are deployed, 
it is one thing; if you are in garrison, it is another thing, 
but it is the welfare of your troops and their families. And I 
was glad to hear you mention that, because that is one of the 
challenges, as you know, as we bring in the all-recruited force 
here, and it is third generation, is that it is not a 9-to-5, 
Monday-through-Friday job. You have responsibility for the 
health and welfare of all of your Marines, soldiers, sailors, 
airmen, coastguardsmen, et cetera. And I applaud your efforts 
to develop that role in conjunction with the continuing role of 
the base commander, and how that all relates then to those 
being served, the families, and then how largely then it falls 
into the base commander's lap in dealing with the Patricians or 
Lincoln or whoever the PPV, you know, owner of the property is.
    This is evolving. And we know we have issues. But I applaud 
you, and whatever we, this Congress, can do to back you up, as 
you develop that role of those various commanders, and then 
with the company, you know, the companies. That is going to be 
our success. We will get through this. But I just thank you for 
that, and I will buy back some of the valuable thing that we 
cannot ever get back, is time.
    And I yield back.
    Mr. Garamendi. Mr. Bergman, thank you so very, very much. 
We all look for more time.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much. Thank you, gentlemen.
    I would like to follow up on the focus on command. I think 
each of you responded to the chairman's question about the 
important role that first-line leaders have, all the way up the 
chain of command to the installation commander. I think it has 
been a common feeling that has been addressed as more and more 
of this issue has been exposed, about the lack of role that 
command has played thus far.
    And so my question is, as you have said, this will be the 
focus going forward. What will change so that the command is 
empowered to actually do something about it? It is one thing to 
be informed of the issue; it is another thing to actually be 
empowered. Were they not empowered to take action to address 
some of these problems with the contractors previously? If not, 
what will change so that they can going forward? Mr. McMahon.
    Secretary McMahon. Congresswoman, thank you for the 
question. If you go back early in the program, when folks 
didn't think they understood it, we had very comprehensive 
education programs for our leaders to describe to them what 
their role was, what authorities they did not have, what 
authorities they had, so that they could effectively oversee 
the privatization effort.
    Over time, as we became comfortable, as we looked at the 
metrics and perceived the metrics to tell us it was going well, 
as you know we have an infinite number of issues, a finite 
amount of time, in terms of training, this quite frankly is 
something that fell off the scope. We thought it was going fine 
and so we reduced, and then, in some cases, actually eliminated 
that education as part of our leadership development for our 
leaders at all levels.
    The reality is, of when we look at this today, it was an 
issue that we should not have dropped off, and the services are 
taking action today to reinstitutionalize that training that 
was integral a decade ago but over time, as we have continued 
to reduce that training, has fallen off the scope. And I will 
let them comment further.
    Ms. Gabbard. Thank you.
    Secretary Modly. Representative, I think it is a really 
good, important question, because some of the things that we 
can do at the command level, I think, are very, very simple, 
and not sophisticated things at all. You know, asking our 
junior leaders to have a face-to-face conversation with their 
people once a week and ask them: How are things going with your 
housing? How are things going with your family? Look them in 
the eye and just ask those questions. That is not a high-tech 
solution, but that would solve a lot of these problems.
    The biggest problem, from my perspective, in looking at 
this, was finding out about issues after they had become major 
problems. So we need to have much better systems and ways to 
understand issues as they emerge, as we start seeing trends. 
And the data is all there. Most of our--most of our partners 
manage these properties using the same data system. We just 
have to be able to get into there and understand when trends 
are happening, so we can measure how long it is taking, and we 
can start raising the alarm bells at the right time. So that is 
sort of, one, the sophisticated data side.
    But to your point, we have to emphasize with our younger 
leaders how important it is to have those types of 
conversations, because of their responsibility to the member 
and their families.
    Mr. Garamendi. I am going to do something here. Mr. 
Beehler, you have been kind of on the far edge of this table. 
So if we can jump over to you, then we will come back to the 
Air Force.
    Ms. Gabbard. I will just add another follow-up to that, Mr. 
Beehler, that I wanted to, that is linked to this, but also to 
something you mentioned earlier about making some changes that 
will reward some of the private contractors. You know, from--
from my standpoint, we are talking about a basic level of 
service that we, as taxpayers, are paying these companies to 
provide for our service members and their families.
    So I guess my first question is, as we are talking about 
empowerment, we are also talking about accountability. So 
before we start talking about rewards, I think we first need to 
address how these contractors are being held accountable for 
providing what we are paying them to do.
    [The information referred to can be found in the Appendix 
on page 85.]
    Secretary Beehler. Thank you, Representative. And what I 
meant by, quote--and I should have put it in quotes--rewarding 
the private companies, is that every 90 days, and I think this 
applies to--across the services, there is an incentive-fee 
determination that is made by the garrison commander, based on 
performance of the private companies. And it is the--it is the 
perfect opportunity and responsibility for the companies to be, 
if you will, judged and rated, so that if the companies have 
not done well in those 90 days, they don't get 100 percent of 
the incentive fees. In some cases, they might not get any 
percent of the incentive fees.
    And the point that I was attempting to make is that the 
garrison commanders, in the case of the Army, had all too often 
sort of rubberstamped the request for 100 percent award of 
incentive fees per quarter. That is no longer the case. We 
actually have removed, for the time being, and brought it up to 
Army headquarters, to, A, make those determinations, but more 
importantly, we are training the garrison commanders to know 
their responsibilities in this area, and that they will take 
advantage of the data collection on, for instance, the work 
order responsiveness and performance to help them make the 
judgment----
    Ms. Gabbard. Thank you, Mr. Beehler. I am sorry, my time 
has expired. It is obviously very disturbing to see that this 
kind of rubberstamp and 100 percent incentive payments were 
being made previously. Glad to hear that it is not any longer. 
I hope we have the opportunity to address the fact that if a 
contractor is not performing, if they are underperforming and 
not meeting their marks, we are not talking about getting a 
lower percentage of incentives. We are talking about 
accountability to make sure that they are actually doing what 
they are contracted to do before you even begin to have a 
conversation about incentives. Thank you.
    Mr. Garamendi. Thank you.
    Ms. Horn.
    Ms. Horn. Thank you. Thank you all for being here today, 
and thank you to the chairman and ranking member for this 
critical conversation.
    I have many things I want to ask and say. First, I am glad 
we are addressing this; but second, I still remain horrified at 
the stories that I have heard from service members and their 
families in my community and across the country. And as we 
continue to address this, there is a couple of things that I 
want--I want to start off with, is going further into the 
conversation around the culture, the commanders, and how this 
was allowed to get to the place where it was, because I have 
heard a couple of you say that you are beginning to address it, 
and that these were a few people, and that I am incredibly 
troubled by the fact that--that these companies were getting 
their full incentive pay, even as thousands of people across 
this country and enlisted who--and their families, who are 
suffering. I have stories from my district, and images, of 
these things that were being covered up. And it is just--it is 
unacceptable.
    And as we fix--as we move forward to fix this problem, one, 
I want to find out if you have begun to make any plans to 
reimburse these families for the out-of-pocket costs for 
things, including mold testing, medical care, and so many other 
things that our military families have had to incur as a result 
of the mismanagement and problems that these companies have 
caused.
    Secretary Modly. Representative, thanks for the question.
    I don't know that we have been presented with opportunities 
to do that. However, once we are, I am quite certain we will 
look at those and figure out a way to compensate if there was a 
problem like that.
    I just am not aware, and I will take that one for the 
record to find out exactly what has happened in the past with 
respect to those types of issues.
    [The information referred to can be found in the Appendix 
on page 86.]
    Secretary Henderson. Ma'am, for the Air Force, what we have 
done is ensured that the--in an effort to better communicate 
with our residents, make sure that they know that they have 
resources inside the Air Force and legal assistance resources 
inside the Air Force to request claims and make claims against 
the project owner for costs like mold testing, maybe damages to 
furniture or something because of negligence, or extended 
medical care costs. And so we have provided the information for 
them to better go about doing that.
    [The information referred to can be found in the Appendix 
on page 86.]
    Secretary Beehler. In the case of the Army, the project 
companies are reimbursing family. We will take further details 
for the record, but this has been ongoing at least over the 
past several months, if not longer.
    [The information referred to can be found in the Appendix 
on page 87.]
    Ms. Horn. Thank you.
    And following up on a couple of other things from Ms. 
Gabbard and Mr. Scott, one, I want to echo--and I appreciate 
being on this committee and working with the concern across the 
aisle that these are not issues that should ever be partisan, 
and we should be placing the well-being of our service members 
above everything else.
    So, to Mr. Scott's point, I just want to reiterate that the 
fact that we have lose-or-pay provisions and forced mediation 
from enlisted is something that I would like to say I think we 
need to address.
    And, Mr. McMahon, I would like to know if there is any 
plans to begin to address those issues.
    Secretary McMahon. Congresswoman, as you look at the bill 
of rights that we are putting together that we have shared with 
the committee so we can get your specific input, next week we 
will sit with the family organizations, share it with them so 
they have the opportunity.
    But that is exactly what we want to ensure we deal with 
with the bill of rights, that it is clear to both our private 
partners as well as to our members, what they can expect and 
set those expectations before we get into a situation where we 
are trying to resolve this.
    Ms. Horn. And, finally, I want to circle back one more time 
to Ms. Gabbard's point about the incentive fees and if there 
has been a consideration that these fees could be recovered 
that were previously paid, if there is any pathway to recover 
some of those fees for these properties that were clearly 
mismanaged and are now requiring costs be outlaid for health 
care, for so many other things for our service members.
    Secretary McMahon. Congresswoman, I will take it for the 
four of us.
    I am unaware--I will go back and talk to our acquisition 
personnel to see if there is, but I am unaware of any tools 
since we have made the commitment at this point that they could 
be recovered.
    [The information referred to can be found in the Appendix 
on page 86.]
    Ms. Horn. Thank you. My time has expired.
    Mr. Garamendi. Thank you.
    Ms. Haaland.
    Ms. Haaland. Thank you very much, Chairman.
    And thank you all so much for taking the time to be here 
today.
    Like some of my colleagues, I was raised in military 
housing as well. My dad had a 30-year career in the Marine 
Corps, and so I spent my entire childhood growing up on 
military bases. And it is interesting that, back when I was a 
kid, before you could move out they would come in with a white 
glove and go in every corner and look in every vent, and, I 
mean, it was as disciplined as my father's career was.
    And so it is a little disheartening to have learned about 
this over the past months. And it is happening, in fact, in my 
home State of New Mexico, where the climate is extremely dry. 
So I am disheartened, to say the least.
    But in addition to everything that has been mentioned here 
today, I have heard reports that retaliation still persists 
against military families who are raising concerns about the 
conditions of their housing. This is extremely troubling as 
retaliation is a big part of the breach of trust between the 
Department of Defense and families that lead these families to 
come to the press and to Congress in the first place, and it 
must stop.
    I realize that for some military wives one way they can 
communicate with other families is through social media. And so 
I realize that that is one way they have been trying to figure 
out who all is suffering from the same issues that they are.
    So I wanted to ask each of you if you commit now to 
adopting and enforcing a zero-tolerance policy on retaliation 
against any families, any military families, who are raising 
concerns about the housing, including within the chain of 
command, on the bases where our service members live and serve 
and the housing offices that should be advocating for our 
military families and among the private contractors who we are 
paying to serve our families.
    So if each of you could let me know if the zero-tolerance 
policy on retaliation is happening now and if it is being 
enforced.
    Secretary McMahon. Congresswoman, I will tell you that we 
have zero tolerance for it, to the point of proactively giving 
out our email addresses, so if we hear of it, folks can reach 
out to us to take care of it. But absolutely a zero tolerance.
    Secretary Modly. And for the Department of the Navy, 
Representative, absolutely that is the case. We have made it 
very clear to our partners it is unacceptable, and it is also 
one of the key planks of the tenant bill of rights that we are 
developing.
    Ms. Haaland. Thank you.
    Secretary Henderson. Ma'am, that has always been the policy 
of the Air Force, and this was an opportunity for us to 
reinforce that.
    Secretary Beehler. Ma'am, the same with the Army.
    And one step forward, the Army has an inspector general 
assessment going on that will be completed in about a month and 
a half, and that is one of the aspects that they are looking 
into, to see if there is any such activity reported and further 
investigate. So we will have confirmation of exactly the lay of 
the land. And if there is such activity, it will be dealt with 
appropriately within the particular channels involved.
    Ms. Haaland. Thank you. And I will ask that any of those 
contact emails or contact numbers be submitted to the record so 
that, in the chance that anyone from my district calls me and 
tells me they are being retaliated against, I can actually have 
some information where they can contact someone to remedy that 
situation. So thank you for that.
    [The information referred to was not available at the time 
of printing.]
    Ms. Haaland. You might have already kind of answered this, 
but who is responsible for investigating claims of retaliation 
against families, whether internal or external, to the 
Department of Defense? Do we know that?
    Secretary McMahon. Within the Department and with each of 
the services, ma'am, the inspector general has a responsibility 
of taking that on. Prior to that point, our leadership ought to 
be looking at those issues. And should it get to the level, it 
would be the DOD IG [Department of Defense Inspector General]. 
But each of the service inspectors general will look at that.
    Ms. Haaland. Excellent.
    Does anyone else have anything to add to that? No? Okay.
    And are there any consequences, and what are they, for 
anyone who retaliates against any military families trying to 
report these housing issues? And, to your knowledge, have those 
been enforced?
    Secretary McMahon. Congresswoman, in terms of specific 
actions, I will tell you, because there is zero tolerance, if 
it is a military member, specific action is taken against that 
individual on a range of different actions. If it is a civilian 
member of the Department of Defense, action is taken against 
them, up to and including removal from service of the Nation. 
So it is taken very seriously.
    Ms. Haaland. Thank you.
    And last on this issue, when and how will you communicate 
this policy, including resources for families and the 
consequences for those who engage in retaliation, to relevant 
parties?
    Secretary McMahon. Congresswoman, across the board, each of 
our services have communicated that to their members and the 
families. Part of the town halls that you have heard alluded to 
is underscoring the fact that there is zero tolerance for 
retaliation.
    I have personally shared that with all of the CEOs of the 
respective privatization partners that we have, so there is 
clear understanding of what our expectations are, and that is 
that we support our family members and our military members in 
terms of privatized housing.
    Ms. Haaland. Thank you very much.
    And, Chairman, I yield back.
    Mr. Garamendi. Thank you, Ms. Haaland.
    We have completed the first round of questions.
    Mr. Lamborn, if you would like to make some closing 
remarks, if you would, and then I will do the same.
    Mr. Lamborn. Thank you.
    And this is an important hearing. Thank you all for being 
here. Thank you for the first steps that each of the services 
and that DOD-wide are making.
    I can tell that the specificity is there, the metrics, the 
harnessing of incentives, the re-education or better education 
down to the garrison level of the leverage that we do have with 
the private contractors and for it to be reenforced to them of 
their obligations and responsibilities, contractually and 
morally.
    So I am really happy that we are making progress. But we 
will be continuing to oversee this. This is something that is--
like I say, good first steps, but it is only the first steps. 
And time will prove and tell that this is being successfully 
rectified, and I look forward to that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Garamendi. I want to thank the committee members for 
their intense interest in this matter and, equally or perhaps 
more important, the family members who had the courage to bring 
this issue to the attention of Congress. You have done a great 
service for all of the members, all of the men and women who 
serve in our military.
    And I want to really express to you, those people that had 
the courage to come forward, you have made a difference. 
Within, really, 2 months here, less than 2 months, the 
leadership of the Department of Defense and the services have 
stepped forward and have put in place a series of projects and 
programs that should, if carried out over time, resolve many of 
these problems.
    I want to just follow up on some of those. First of all, 
each of the services and the Secretary, or the Office of the 
Secretary, have indicated that they have emails and telephone 
numbers that are available to receive complaints. I assume that 
those will be available, the committee will have those, and we 
will make those available to anybody that would like those.
    Similarly, when the bill of rights is produced, I believe 
there is a draft that the committee has. I think it is being 
updated today and on into the days ahead. When that update is 
available, we will pass it around to all the members of the 
committee and to any Member of Congress that is interested for 
their comment as to the effectiveness, the efficiency, or the 
sufficiency of it. And that will, I assume, have the various 
contacts within the garrisons, within the installations, as 
well as at headquarters.
    Also, we noticed that each of the services are rebuilding 
the personnel necessary to monitor. That will be part of the 
work that we will do in the NDAA and the upcoming work that 
this committee has in that regard to make sure that that is in 
place. And we will, of course, beg our appropriators to fund 
those positions.
    The lease contracts are under review. The information that 
I have received on some of the leases would indicate that the 
leases that are in effect would clearly be illegal in some 
States and communities--for example, Washington, DC. So those 
contracts are in process of being reviewed--that is, the 
contract between the owner of the housing and the tenant that 
is the military family. So that will be part of it.
    And I would assume those leases will also have a--the new 
leases will have some sort of mechanism for complaints. The 
issue of retaliation has been raised by all the members and by 
the services. Those issues of retaliation are over, and we will 
be watching.
    Finally, we will be following up. I want to commend and 
compliment the services and the Office of the Secretary for 
jumping on this issue, for laying out paths that will resolve 
these issues going forward. And heads up, folks, we are going 
to be coming back to this issue before this year is over. We 
will let a couple of months go by, we will see how things are 
going, and then you will all come back and we will have a 
conversation to see the progress that has been made.
    With that, we are adjourned.
    [Whereupon, at 10:15 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 4, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 4, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
 

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 4, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 4, 2019

=======================================================================

      

      

            RESPONSES TO QUESTIONS SUBMITTED BY MS. GABBARD

    Secretary Henderson. The Air Force has initiated five lines of 
effort to specifically address the problems we are facing in privatized 
housing. These efforts include: empower residents, improve oversight, 
integrate leadership, improve communications and standardize policy. 
Each of these lines of effort have a number of tasks we are actively 
working. We concur that ensuring that our chain of command and leaders 
are actively involved with privatized housing is critical. To that end, 
the Air Force recently sent a letter signed by the Secretary, Chief of 
Staff, and Chief Master Sergeant of the Air Force to each installation 
commander reemphasizing their roles and responsibilities regarding 
oversight in privatized housing and the protection of the health and 
safety of military members and their families. Additionally, to 
integrate leadership, we are currently doing the following:
    <bullet>  Increasing commander involvement in Management Review 
Committees and performance incentive fee determinations to drive 
compliance with closing documents
    <bullet>  Adding resident councils that will communicate directly 
with commanders
    <bullet>  Adding a tenant advocate position at the installation 
level to act for the commander in assisting residents when issues arise
    <bullet>  Adding additional manpower to our Air Force housing 
offices which support the commander in increasing quality assurance 
inspections of work orders and other maintenance tasks
    <bullet>  Providing commanders information on the outcome of 
inspections, any health and safety concerns, and maintenance and 
leasing metrics during monthly and quarterly updates
    All of the above actions will inform commanders along the chain of 
command and empower Air Force leaders to rectify any negative trends. 
We believe these actions in concert with others in our lines of effort 
will address the underlying root causes, integrate our commanders and 
ensure the program is delivering safe and high quality housing our 
military members deserve.   [See page 19.]
    Secretary Beehler. Safe and secure family housing is a key function 
of Army installations and, ultimately, Soldier readiness. To provide 
long-term oversight the Army has realigned Installation Management 
Command under Army Materiel Command, which improves advocacy within the 
Army for all installation requirements. This realignment establishes 
unity of command and effort on Army installations, improves the 
readiness of our Soldiers and formations, and strengthens the well- 
being of our Soldiers, Civilians and their Families. An immediate 
change in March 2019 to improve accountability over Army's MHPI 
Residential Communities Initiative (RCI) partner performance was to 
elevate the approval of all incentive fee awards to the HQDA level. The 
Army continues to review incentive fee metrics with the RCI companies 
with an eye to enhancing garrison commanders' involvement in the 
incentive fee decision process. These metric changes are intended to 
shift focus to achieving positive housing outcomes for our military 
families, quickly and with quality workmanship. The Army is also 
rebuilding its expertise in exercising oversight at the installation 
level, to include hiring additional quality assurance personnel, 
gaining access to RCI partner work order data to improve 
responsiveness, and continuously improving garrison commanders' housing 
oversight training. Additionally, the Army, in conjunction with the 
other Services, is working to codify the methodology for residents to 
withhold rent when RCI partners do not meet their obligations.   [See 
page 19.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. KIM
    Secretary Beehler. The Army conducted 100% visits to all privatized 
and Army owned family houses. We immediately set up a Housing Crisis 
Action Team to monitor and track homes with life, health and safety 
issues. We established a Hot Line phone number at every installation 
which can be accessed by any housing resident should they prefer 
privacy to report any housing issue. The Army is hiring 114 Quality 
Assurance and Quality Control personnel across its installations over 
the next two months to increase its oversight, and we have enhanced our 
Quality Assurance Program and oversight to ensure maintenance trends 
are captured and addressed. The enhanced quality assurance procedures 
are conducted by Army Housing careerists; 100% inspection of all homes 
are completed between occupancy maintenance; 100% physical inspections 
of all life, health or safety issues work orders; we contact 5% of all 
residents with recently-completed work orders to determine satisfaction 
and Army Housing Management staff visits those expressing 
dissatisfaction with the maintenance conducted. The Army is also 
working to empower residents through a smartphone/web application that 
will streamline customer feedback submissions and enhance quality 
assurance and quality control for work orders.   [See page 13.]
                                 ______
                                 
              RESPONSES TO QUESTIONS SUBMITTED BY MS. HORN
    Secretary McMahon. The housing privatization projects own, operate, 
and maintain the privatized housing under the Military Housing 
Privatization Initiative and, therefore, are the entities responsible 
for timely and properly remediating any issue in a privatized home. If 
a project fails to timely and properly remediate an issue, the existing 
deal structures provide the mechanisms for the Military Departments to 
hold the MHPI private partners accountable for substandard housing. In 
addition to withholding of incentive fees, the Military Departments 
have certain rights regarding major decisions made by the privatization 
project, to include the right to require replacement of the housing 
management and maintenance service providers if warranted based on 
overall poor performance as defined in the deal structure documents. In 
a small number of cases, a Military Department has required the housing 
privatization project to replace the property management service 
provider. As ASD(Sustainment), I am working closely with the Military 
Department Assistant Secretaries who directly oversee their respective 
privatized housing projects to establish near-term, mid-term, and long-
term actions that the Department needs to take to address current 
conditions in privatized housing and restore the program to the success 
that it enjoyed in its first 20 years.   [See page 20.]
    Secretary McMahon. The existing legal documents do not provide a 
mechanism to recover fees previously paid to a service provider of a 
project. However, as mentioned previously, I have been working closely 
with the Military Department Assistant Secretaries to ensure that they 
are taking steps to reinvigorate their oversight of privatized housing 
projects, to include quality assurance, monitoring, enforcement of 
performance requirements by privatization projects, withholding of 
incentive fees, and other action forcing mechanisms provided for in the 
existing legal deal structures. I am also working with my staff to 
implement new performance metrics to better monitor Military Department 
oversight and privatization partner performance to help ensure that the 
Department addresses housing concerns raised by residents and keeps 
this commitment over the long-term.   [See page 21.]
    Secretary Modly. The Department of the Navy is committed to working 
with our private partners and installation commanders to remedy 
systemic Military Housing Privatization Initiative issues. We are 
working diligently with the other military services to develop a 
Resident Bill of Rights, which will better describe problem resolution 
options for families when dealing with private housing companies. 
Military members and their family members are eligible for care through 
the military medicine network including military treatment facilities 
and network providers. Treatment provided by these services is covered 
under normal military medical benefits with TRICARE, as the medical 
insurance provider. Care from out of network providers is not covered 
and will not be reimbursed without valid pre-authorization. Tests not 
approved by the Food and Drug Administration, other non-approved tests, 
and treatments are not covered. Validated clinical tests exist for very 
few environmental exposures, and Navy Medicine has established 
processes for reporting and response. These include lead, drinking 
water quality, lead in drinking water in priority areas (i.e., schools, 
day care centers), and perfluorochemicals. Many more environmental 
exposures, such as mold and radon, have no validated clinical tests or 
findings to support a direct linkage between environmental exposures 
and clinical symptoms or physiologic changes in patients that are 
exposed. With respect to mold testing, Navy Medicine's policy reflects 
Environmental Protection Agency and Centers for Disease Control 
recommendations to not routinely sample for indoor mold. Reimbursement 
for testing in private homes or privatized housing falls outside the 
scope of Navy Medicine and would need to be addressed to the landlord. 
However, no mechanism or funding source has been identified to 
reimburse service members or their families for unauthorized expenses 
pertaining to this matter.   [See page 20.]
    Secretary Henderson. Air Force military members who are seeking 
reimbursement for the costs of mold testing within the home and any 
associated property damage due to mold in privatized housing have 
several avenues for remedy. First, they should first file a claim 
directly with the privatized housing owner. If the member is not 
satisfied with the resolution of that claim, they may then file a claim 
against any private renter's insurance policy they have, and then 
finally file a claim with the Air Force (through the Air Force Claims 
Service Center). Congress enacted the Personnel Claims Act to lessen 
the hardships of military life by providing payment for certain types 
of property loss. However, it is not insurance coverage and is not 
designed to make the United States an insurer of the personal property 
of claimants. The Air Force cannot prejudge whether such claims will or 
won't be payable, but the Claims Service Center will review the claims 
individually in light of the Personnel Claims Act and the associated 
regulations. The Personnel Claims Act does not authorize the Air Force 
to approve claims made by civilians or retirees for the cost of home 
mold testing or other personal property damage. Reimbursement for costs 
associated with medical care is dependent upon the individual's status. 
TRICARE covers active duty members and their dependents and they could 
receive their care free of cost at a military medical treatment 
facility. Retirees could also be covered by TRICARE and treated at 
military medical treatment facilities at no additional personal cost. 
Civilians who live in privatized housing do so of their own choice. Any 
medical costs they incur as a result of the negligence of the 
privatized housing contractor could result in a tort claim against the 
contractor, not the Department of Defense or the United States Air 
Force. There is no legal authority that would allow the United States 
Air Force to pay a claim to civilians in this instance.   [See page 
20.]
    Secretary Beehler. Families who have paid out of pocket costs for 
things such as mold testing can seek reimbursement from the Army's MHPI 
Residential Communities Initiative (RCI) Project Company. Families can 
use the installation established housing Hot line to discuss any 
concerns they have regarding the home to include reimbursement. 
Families also have an Army advocate at each installation housing office 
from whom they can seek assistance.   [See page 20.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. HOULAHAN
    Secretary Henderson. Question 1. How many children under 6 years of 
age have encountered developmental delays from lead and/or mold? 
Children are screened for developmental delays at regular intervals 
according to the American Academy of Pediatrics. The etiology of 
developmental delays in children is diverse and evaluation for risk 
factors for, or a causal etiology of, developmental delays is dependent 
upon the individual clinical scenario. There is insufficient evidence 
to link mold exposure as a causal risk factor for developmental delays 
in children. There is sufficient evidence to link lead exposure as a 
causal risk factor for developmental delays in children. Further 
investigation is required to understand how many children under 6 years 
of age may have developmental delays from lead exposure and we would be 
happy to provide you with that information.
    Question 2. What has AF/DOD done to educate parents, teachers, 
daycare providers, etc. on lead and mold-related developmental delay 
symptoms? As previously mentioned, there is insufficient evidence to 
link mold exposure as a causal risk factor for developmental delays in 
children. Pediatric patients are screened for lead exposure at 
intervals according to the American Academy of Pediatrics and local 
requirements. Additionally, education for patients and parents is 
provided based on the individual clinical circumstance. Per Air Force 
Policy, all children with an elevated blood level, as defined by the 
Center for Disease Control (see CDC Fact Sheet), are referred to Public 
Health. Public Health initiates a lead toxicity investigation and 
tracks and follows-up results for children younger than 6 years of age. 
The USAF School of Aerospace Medicine Public Health provides 
surveillance and maintains a historical database of past pediatric 
blood lead screening results from each installation. We are not aware 
of a communications campaign specifically directed to non-parents on 
lead and mold-related symptoms. A pediatric medical advisor from the 
Medical Treatment Facility is assigned as liaison to Child and Youth 
Programs on base for assistance with medical issues and training.   
[See page 16.]
    Secretary Beehler. Army senior leaders have directed and led the 
effort to ensure command oversight of Army's MPHI Residential 
Communities Initiative (RCI) housing. Roles and responsibilities at 
every echelon are being codified in policy, and the Army is 
incorporating training specific to housing oversight in our Command 
courses. The Army is also working closely with Navy and Air Force 
officials to finalize the Resident Bill of Rights, which will be 
incorporated into a revised, standardized tenant lease framework.   
[See page 16.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 4, 2019

=======================================================================

      

      

                    QUESTIONS SUBMITTED BY MR. SCOTT

    Mr. Scott. I have heard from several sources that there are no 
plans to touch any of the housing or billeting funds for either 
disaster relief or border wall funding. Is this accurate? What 
constraints will you be faced with if we are unable to come to an 
agreement on budget caps and sequestration kicks in this fall?
    Secretary McMahon. As the Acting Secretary has testified, no 
military housing, barracks, or dormitory projects will be used to fund 
disaster relief or, in the event the Acting Secretary decides to 
undertake or authorize military construction under section 2808, to 
fund the border barrier construction under that section. At the 
beginning of 2017, the Department had suffered from unstable budgets 
and devastating sequestration cuts that had eroded readiness and 
exacerbated our challenges. Over the past two years, this 
Administration, with Congress's support, has made investments to undo 
this damage and we are already seeing significant benefits to readiness 
across military services. As we move forward, we must work together to 
protect these gains while building a military to meet the challenges of 
the future.
    Mr. Scott. The timeliness and quality of work performed by partner 
subcontractors and maintenance personnel is of great concern to 
families. How will each service perform oversight required to increase 
the transparency and effectiveness of work order tracking to ensure 
that residents get the service they deserve?
    Secretary Modly. Navy and Marine Corps housing offices at 
installations have access to the partner's electronic maintenance 
database system (e.g., YARDI) and review work orders for potential 
environmental concerns and other issues. The Department of the Navy 
(DON) is implementing a series of partner and government metrics, as 
well as associated spot checks to improve transparency in tracking work 
order status. The DON maintains the right to inspect Public Private 
Venture Housing under the terms of the ground lease and associated 
project legal agreements, to include short notice inspections for 
environmental matters. We remain committed to working with our private 
partners and installation commanders to address housing oversight 
issues, including improved transparency in tracking work order status.
    Mr. Scott. The timeliness and quality of work performed by partner 
subcontractors and maintenance personnel is of great concern to 
families. How will each service perform oversight required to increase 
the transparency and effectiveness of work order tracking to ensure 
that residents get the service they deserve?
    Secretary Henderson. The Air Force has initiated five lines of 
effort to specifically address the problems we are facing in privatized 
housing. These efforts include: empower residents, improve oversight, 
integrate leadership, improve communications and standardize policy. 
Each of these lines of effort have a number of actions we are actively 
working. Specific to improving oversight and work order tracking, we 
are doing the following:
    <bullet>  Working with project owners to provide complete work 
order transparency to the residents
    <bullet>  Adding additional manpower to increase quality assurance 
inspections of work orders and other maintenance tasks
    <bullet>  Adding a tenant advocate position at each installation 
with privatized housing that will assist residents when issues arise to 
connect them with the resources to help resolve them
    <bullet>  Establishing resident councils and improving feedback 
tools to detect issues earlier.
    <bullet>  Increasing commander involvement in Management Review 
Committees and performance incentive fee determinations to drive 
compliance
    <bullet>  Placed Regional Construction Managers at our most 
troubled locations with specific training in mold remediation to assist 
the local Housing Management Offices and ensure our privatized partners 
are carrying out work properly and are employing an effective quality 
control team
    <bullet>  Established a toll-free line for residents to elevate 
concerns, including work order issues, and have them addressed directly 
by the Air Force Civil Engineer Center
    We believe these actions in concert with others in our lines of 
effort will address the underlying root causes and ensure the program 
is delivering the safe and high quality housing our military members 
and their families deserve.
    Mr. Scott. The timeliness and quality of work performed by partner 
subcontractors and maintenance personnel is of great concern to 
families. How will each service perform oversight required to increase 
the transparency and effectiveness of work order tracking to ensure 
that residents get the service they deserve?
    Secretary Beehler. The Army will increase oversight by enhancing 
our quality assurance inspections of all homes between occupancy to 
ensure Families are moving into homes that have no outstanding 
maintenance issues. The Army is increasing the number of Quality 
Assurance and Quality Control personnel across its installations to 
improve oversight of housing maintenance tasks. The Army is also 
working to empower residents through a smartphone/web applications that 
will streamline work order requests, monitor progress, and provide 
immediate customer service feedback for a service request.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Secretary McMahon, given the complex nature of mold 
and the lack of a national standard for removing and detecting it, do 
you believe the Department is equipped to satisfactorily establish a 
testing and remediation standard for mold contamination? Follow-up: 
Would it be fair to say guidance from public health experts would be 
beneficial to developing, implementing and enforcing standards for 
acceptable levels of mold and clean-up procedures?
    Secretary McMahon. The Military Departments and MHPI project 
partners continue to work together to review housing conditions, 
address health and safety hazards, and to evaluate policies and 
procedures to ensure that any health and safety issues are addressed in 
a manner protective of human health and the environment, in compliance 
with all applicable federal, state, and local laws and regulations, and 
applicable DOD and Military Department policies. In all cases, it is my 
expectation that the Military Departments and housing privatization 
partners keep residents informed about lead-based paint, mold, or other 
hazards, and associated mitigation or abatement measures. As health 
concerns continue related to exposure to mold, which is a natural 
hazard, Federal regulations may become necessary to provide consistent 
standards for both remediation as well as treatment for exposure. My 
office is working with the Office of the Assistant Secretary of Defense 
for Health Affairs [OASD(HA)] to ensure military families who have 
health concerns that may be related to housing receive appropriate 
health care services, and that there are clear processes in place for 
medical and public health officials to raise concerns about housing 
conditions to installation housing offices for investigation and 
remediation, as appropriate. My office is also working the OASD(HA) to 
ensure processes are in place for DOD medical or public health 
officials to share information bout potential housing-related health 
conditions with other health officials, as appropriate.
    Ms. Stefanik. The Army Housing Action Plan includes adding 
curriculum on military housing to the garrison commander course. Is the 
Army certain that this is appropriate level of command preparation to 
insert this particular training requirement? How will you measure the 
training effectiveness? And what comparable actions are the other 
services taking?
    Secretary McMahon. As ASD(Sustainment), I am working closely with 
the Military Department Assistant Secretaries who directly oversee 
their respective privatized housing projects to establish near-term, 
mid-term, and long-term actions that the Department needs to take to 
address conditions in privatized housing, to include the need for 
Military Departments to reinstate quality training for installation 
commanders and housing staff regarding their responsibilities in 
connection with privatized housing so that they are able to provide 
quality assurance, and monitor and hold privatized housing projects 
accountable for providing timely, responsive, high-quality service and 
housing for service members and their families. This includes 
understanding their authority to withhold incentive fees and other 
forcing mechanisms provided for in the existing legal deal structures, 
or to raise significant concerns to high leadership, as appropriate. 
Effectiveness will be measured over the long-term based on both the 
financial sustainment of the program and improved resident 
satisfaction. We are fully committed at the leadership level to 
ensuring that the success enjoyed over the first 20 years of the 
program is reestablished and sustained over the remaining life of the 
program.
    Ms. Stefanik. How are the services making modifications to the 
current lease military privatized house agreements to integrate 
mechanisms for improved oversight and responsiveness to housing 
problems, such as a tenant bill of rights or customer satisfaction 
incentives? How will this be enforced? What is the level of oversight 
within the Department?
    Secretary McMahon. The health and safety of our Service members and 
their families is a top priority for the DOD. Although privatization 
has dramatically improved the quality of on-base housing, there is room 
for improvement, including in those areas raised in recent media 
coverage. Under my leadership, working together with the Military 
Departments and the Military Housing Privatization Initiative (MHPI) 
partners, inspections of individual homes are underway, resident 
communication has increased, and development of an MHPI Resident Bill 
of Rights, with input from families and family advocates, is underway. 
We are committed to improving communication with residents, without 
fear of retribution, and to quickly identify and address health and 
safety issues going forward. As ASD(Sustainment), I have met three 
times with the housing privatization partner CEOs to ensure their 
commitment to the shared goal of providing safe, quality, and 
affordable housing where service members and their families will want 
and choose to live. Additionally, I have been working closely with the 
Military Department Assistant Secretaries to ensure that they are 
taking steps to reinvigorate their oversight of privatized housing 
projects, to include quality assurance, monitoring, and enforcement of 
performance requirements by privatization projects, and withholding of 
incentive fees and other forcing mechanisms provided for in the 
existing legal deal structures. I am also working with my staff to 
implement new performance metrics to better monitor Military Department 
oversight and privatization partner performance to help ensure that the 
Department addresses housing concerns raised by residents and keeps 
this commitment over the long-term.
    Ms. Stefanik. Specifically how are the services making 
modifications to the current lease military privatized house agreements 
to integrate mechanisms for improved oversight and responsiveness to 
housing problems, such as a tenant bill of rights or customer 
satisfaction incentives? How will this be enforced? What is the level 
of oversight within the Department?
    Secretary Modly. The Department of the Navy (DON) and Military 
Housing Privatization Initiative (MHPI) partners are collaborating on 
the development of a uniform set of key lease provisions to be included 
in every MHPI resident lease across the Services. Lease provisions will 
be written to clearly identify tenant rights and responsibilities and 
integrate mechanisms for improved responsiveness to housing concerns. 
In addition, the DON has been working to strengthen the business 
agreement oversight processes, property maintenance metrics on 
responsiveness, strategic communications, and incentive fee criteria. 
The DON has requested additional resources to enable hiring personnel 
at installation, region, and headquarters levels to provide additional 
oversight of MHPI housing and execution of the program.
    Ms. Stefanik. How are the services making modifications to the 
current lease military privatized house agreements to integrate 
mechanisms for improved oversight and responsiveness to housing 
problems, such as a tenant bill of rights or customer satisfaction 
incentives? How will this be enforced? What is the level of oversight 
within the Department?
    Secretary Henderson. The Air Force has initiated five lines of 
effort to specifically address the problems we are facing in privatized 
housing. These efforts include: empower residents, improve oversight, 
integrate leadership, improve communications and standardize policy. 
Each of these lines of effort have a number of actions we are actively 
working. Specific to empowering residents, we are currently doing the 
following:
    <bullet>  Working with our sister Services and privatized partners 
to develop a Tenant Bill of Rights that will identify basic housing 
rights of military members and their families residing in privatized 
housing to ensure they receive quality housing and fair treatment.
    <bullet>  Adding a tenant advocate position at each installation 
with privatized housing that will assist residents when issues arise to 
connect them with the resources to help resolve them
    <bullet>  Working with our sister Services and privatized partner 
to develop a common lease to inform residents of their rights and 
establish consistent expectations with the landlord-tenant relationship
    <bullet>  Evaluating the current CEL & Associates housing survey 
for possible alterations to the survey tool or its implementation to 
better assess customer satisfaction
    There are also several other measures underway to improve oversight 
and ensure responsiveness of project owners. We are currently doing the 
following:
    <bullet>  Working with project owners to provide complete work 
order transparency to the residents
    <bullet>  Adding additional manpower to increase quality assurance 
inspections of work orders and other maintenance tasks
    <bullet>  Adding a tenant advocate position at each installation 
with privatized housing that will assist residents when issues arise to 
connect them with the resources to help resolve them
    <bullet>  Establishing resident councils and improving feedback 
tools to detect issues earlier.
    <bullet>  Increasing commander involvement in Management Review 
Committees and performance incentive fee determinations to drive 
compliance
    <bullet>  Placed Regional Construction Managers at our most 
troubled locations with specific training in mold remediation to assist 
the local Housing Management Offices and ensure our privatized partners 
are carrying out work properly and are employing an effective quality 
control team
    <bullet>  Established a toll-free line for residents to elevate 
concerns, including work order issues, and have them addressed directly 
by the Air Force Civil Engineer Center
    With respect to enforcing the requirements of our agreements, the 
Housing Management Office verifies the performance of project owners at 
the local level. We expect improved project owner quality and 
responsiveness by increasing oversight resources at the local housing 
office level. Validation of specified performance requirements and 
contractual metrics (work order responsiveness, for example) rests with 
the Air Force Civil Engineering Center. Enforcement should not be 
confused with day-to-day responsibility for the protection and well-
being of the residents of privatized housing. This responsibility 
resides with the installation commander and was reinforced through a 
recent letter from the Secretary of the Air Force and Chief of Staff. 
We believe these actions in concert with others in our lines of effort 
will address the underlying root causes and ensure the program is 
delivering safe and high quality housing our military members and their 
families deserve.
    Ms. Stefanik. Secretary Beehler, I had the opportunity to review 
the Army Housing Action Plan. How will you ensure the positive Command-
led changes that are taking place right now are enduring solutions, 
opposed to short-term fixes that may not last beyond the current 
leadership?
    Secretary Beehler. Primary prevention involves minimizing exposure 
to environmental hazards. Facilities managers and housing contractors 
identify and mitigate potential hazards through routine inspections, 
response to specific complaints, and scheduled turnover maintenance 
before a new leaseholder moves in to a vacant unit. Housing offices 
educate incoming residents about user-level upkeep and processes for 
reporting any concerns. Secondary prevention involves screening for 
potential issues before any clinical symptoms develop. To prevent lead 
toxicity, Army healthcare providers screen children according to the 
American Academy of Pediatrics/Bright Futures guidelines during routine 
check-ups at 6, 9, 12, 18, and 24 months, and annually from ages 3 to 6 
years of age. Healthcare providers use screening to assess for risk of 
lead exposure. Children at increased risk undergo blood testing to 
determine exact blood lead levels. Healthcare providers also use 
standard questions to screen for other environmental hazards and 
provide recommendations to address them. Examples include screening for 
second-hand smoke exposure and use of carbon monoxide detectors. A 
portion of the screening questions prompt providers to ask general 
questions about home and daycare issues, but it does not contain 
specific questions about asbestos or mold. Finally, tertiary prevention 
includes treating conditions to prevent them from getting worse. For 
example, healthcare providers treating a patient with moderate asthma 
typically prescribe medicines to control the condition and prevent 
wheezing episodes. In cases where mold triggers a patient's asthma 
attacks, healthcare providers work with parents, preventive medicine 
teams, and facilities managers to help reduce exposure to mold.
    Ms. Stefanik. The Army Housing Action Plan includes adding 
curriculum on military housing to the garrison commander course. Is the 
Army certain that this is appropriate level of command preparation to 
insert this particular training requirement? How will you measure the 
training effectiveness? And what comparable actions are the other 
services taking?
    Secretary Beehler. Yes, the additional curriculum in the Garrison 
Commander and Senior Commander Courses is targeted at the appropriate 
level. Installation Management Command initiated a comprehensive 
retraining session in early spring for current and incoming garrison 
commanders on family housing oversight. This training was used by the 
Commanders during the 100% home visits that took place in March. It is 
my understanding other Military Departments have implemented similar 
refresher training programs.
    Ms. Stefanik. How are the services making modifications to the 
current lease military privatized house agreements to integrate 
mechanisms for improved oversight and responsiveness to housing 
problems, such as a tenant bill of rights or customer satisfaction 
incentives? How will this be enforced? What is the level of oversight 
within the Department?
    Secretary Beehler. The Army, is working closely with Navy and Air 
Force officials to finalize the MHPI Resident Bill of Rights. The 
intent is to incorporate these tenets into a revised, standardized 
lease framework. The Army's oversight of housing management and 
maintenance is provided at three levels: HQDA performs RCI project and 
program portfolio performance oversight management, and monitors each 
privatized project through reviews of monthly, quarterly, and annual 
reports as well as compliance visits and special purpose reviews; 
tactical day-to-day level oversight is performed by the Army Material 
Command and its subordinate, Installation Management Command.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. Military families have a right to make informed decisions 
about whether to move in to the homes that are offered to them in 
privatized family housing. Are you looking at creating a publicly 
accessible database for housing that would contain environmental health 
issues related to specific homes and steps taken to remedy these 
concerns?
    Secretary McMahon. Providing our members with the information they 
need to make informed rental decisions, on an as requested basis is 
something that the Department can and will facilitate with its 
privatization partners immediately. As for a publically accessible 
database, that is something we will have to consider carefully, to 
ensure it can be reliably operated and maintained so as to serve as an 
accurate and complete resource.
    Mr. Kim. Military families have a right to make informed decisions 
about whether to move in to the homes that are offered to them in 
privatized family housing. Are you looking at creating a publicly 
accessible database for housing that would contain environmental health 
issues related to specific homes and steps taken to remedy these 
concerns?
    Secretary Modly. The Department of the Navy (DON) is not creating a 
public database populated with remediated repair issues. Instead, the 
DON is implementing systemic improvements to its business processes and 
metrics to improve reporting mechanisms and oversight procedures that 
govern how discrepancies are reported, remediated, and verified. This 
includes use of government and Military Housing Privatization 
Initiative partner database systems to track, rate, and resolve issues 
to ensure quality repairs.
    Mr. Kim. Military families have a right to make informed decisions 
about whether to move in to the homes that are offered to them in 
privatized family housing. Are you looking at creating a publicly 
accessible database for housing that would contain environmental health 
issues related to specific homes and steps taken to remedy these 
concerns?
    Secretary Henderson. The Air Force agrees military families have a 
right to have access to environmental health information to make 
informed decisions about the homes offered them in privatized family 
housing, but believes a publically accessible database is not the best 
solution. Instead, we are looking to better empower our residents 
through a Tenant Bill of Rights. A Tenant Bill of Rights will ensure 
tenants are present for move-in inspections of homes offered to them 
for rent. The Air Force will inspect 100% of units prior to occupancy 
with a focus on the health and safety aspects of the home. The 
privatized owners are required to make the same disclosures required by 
all landlords prior to lease signing. These disclosures provide test 
results and other data specific to the home, mitigations in place, 
housekeeping recommendations, and guidance on what to do if they have 
concerns. The Air Force will ensure these disclosures are taking place 
in 100% of leases signed with military residents. In those areas where 
mold is more prevalent, project owners will provide residents a mold 
addendum as part of their lease and handouts on what to do if they find 
any mold.
    Mr. Kim. Military families have a right to make informed decisions 
about whether to move in to the homes that are offered to them in 
privatized family housing. Are you looking at creating a publicly 
accessible database for housing that would contain environmental health 
issues related to specific homes and steps taken to remedy these 
concerns?
    Secretary Beehler. The Army understands residents need information 
to make informed decisions about their housing choices. The Army's MHPI 
Residential Communities Initiative (RCI) Project Companies will report 
on homes being offered that could contain the age of the home, possible 
environmental hazards, steps to remedy the environmental hazards, and 
what the resident should do if they encounter any maintenance concerns.

                                  <all>
</pre></body></html>
